   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




             National Oceanic and
       Atmospheric Administration

    Missoula Weather Forecast Office
 Generally Provides Quality Service to
             Its County Warning Area
Final Inspection Report No. IPE-14225/September 2001




              PUBLIC RELEASE




              Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                             Final Report IPE – 14225

Office of Inspector General                                                                                      September 2001


                                                 TABLE OF CONTENTS
                                                                                                                                  Page

EXECUTIVE SUMMARY ........................................................................................................... i 


INTRODUCTION ........................................................................................................................ 1 


OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 1 


BACKGROUND .......................................................................................................................... 2 


FINDINGS AND CONCLUSIONS ............................................................................................. 6 


I.        	WFO’s Weather Forecasting Is Generally Effective ........................................................ 6 


          A. Most programs have yielded reliable forecasts........................................................... 6 

          B. The severe weather program needs improvement .................................................... 12 


II. 	     Office Outreach Efforts Have Helped Improve WFO’s Effectiveness........................... 14 


III.	     Although the Cooperative Observer and Skywarn Programs Are Generally Well-

          Maintained, Improvements Can Be Made ...................................................................... 16 


          A. Staff is concerned about losing key Cooperative Observer sites.............................. 16 

          B. Office faces difficulties in locating Skywarn spotters in remote areas..................... 18 


IV. 	     Regional Oversight Appears Adequate........................................................................... 20 


V. 	      Actions Are Being Taken to Improve the Office’s Training Program ........................... 22 


VI. 	     Several Resource Allocation Issues Need to be Addressed............................................ 23 


          A. The possibility of losing incident meteorologists to the Geographic Area 

             Coordination Centers is a serious NWS concern...................................................... 23 

          B. The state forecast product may be unnecessary or duplicative................................. 24 

          C. Electronic technicians can reduce travel time required for ASOS repairs................ 24 


VII. 	 Internal Controls Are Generally Adequate, but Improvements Are 

       Needed in Some Areas.................................................................................................... 27 


          A.   MIC has recently implemented improved administrative controls........................... 27 

          B.   Office inventory system needs some management attention.................................... 28 

          C.   Information technology controls are improving ....................................................... 30 

          D.   Quality control needs to be more systematic ............................................................ 32 


RECOMMENDATIONS............................................................................................................ 34 

AGENCY RESPONSE…………………………………………………………………………36 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



                                  EXECUTIVE SUMMARY


Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in Missoula, Montana. Our fieldwork was conducted from March 26
through March 30, 2001. We also conducted interviews and reviewed files and other pertinent
information at NWS headquarters from March 8 through June 15, 2001. The objective of this
inspection was to determine how effectively the Missoula WFO (1) delivers warnings, forecasts,
and other information to its service users; (2) coordinates its activities with state and local
emergency managers; and (3) manages its network of observers and volunteer spotters. We also
assessed the adequacy of the office’s management and its internal controls; its compliance with
Department, National Oceanic and Atmospheric Administration (NOAA), and NWS policies and
procedures; and the effectiveness of NWS’s regional oversight. This is the third in a series of
OIG inspections of WFOs.

NWS, an agency within NOAA, has 121 WFOs nationwide. Each WFO issues local weather
forecasts and warnings of severe weather—such as tornadoes, severe thunderstorms, floods,
hurricanes, and extreme winter weather—for its assigned counties. In April 2000, the Missoula
office was converted from a Weather Service Office to a Weather Forecast Office, which
resulted in its assuming additional responsibilities. The office currently has a staff of 25 and
services a warning area covering 14 counties (11 in Montana and 3 in Idaho).

The WFO uses various technologies and programs to help protect the citizens in its county
warning area. Radar, satellite, and automated surface observing systems are used to prepare
forecasts and issue warnings for all types of severe weather. NWS commissioned the Advanced
Weather Interactive Processing System in Missoula on February 15, 2000. This system, which
integrates NWS meteorological and hydrological data with NWS satellite and radar data, is
designed to enable forecasters to prepare and issue more accurate and timely forecasts and
warnings.

The office’s fire weather program, considered its most critical activity, provides meteorological
support to wildland fire management agencies for the protection of life and property. This
support includes providing warnings, forecasts, on-site services during wildfires, and
meteorological training for fire management officials.

In performing our review, we examined pertinent records and documents and interviewed all of
the available staff at the Missoula WFO. We also interviewed the regional director in Salt Lake
City, as well as many representatives from the Department and other federal, state, and local
government agencies. In addition, we spoke with individuals outside of the federal government
who are involved in meteorological activities to obtain their assessment of the services provided
by the Missoula WFO, as well as to elicit any suggestions they had for improving the office’s
provision of critical weather information.




                                                 i
U.S. Department of Commerce                                              Final Report IPE – 14225

Office of Inspector General                                                       September 2001



We found that the office was effectively providing most services to the public and was generally
well managed. For example:

   • 	 The WFO has done a good job of issuing most weather forecast and warning
       products. The office’s fire weather, winter weather, hydrology, and aviation programs
       have been generally good since it assumed the additional weather program
       responsibilities associated with being a WFO. Office personnel believe that they have
       been able to accomplish their mission through the commitment of WFO staff and the
       addition of two forecasters. While the Missoula office has some consistently strong
       programs, the severe storm program requires management’s attention. In addition, to
       further strengthen its fire weather program, the WFO should consider conducting a post
       season analysis of the 2000 and future fire weather seasons. The NWS’s fire assessment
       team considers this to be a “best practice” in place at the Great Falls WFO (see page 6).

   • 	 Office outreach efforts to emergency managers and other users are effective. We
       spoke with numerous public officials and emergency managers from several counties
       concerning their interaction with the Missoula WFO and elicited their views on the
       quality of services the WFO provides. Although several officials provided suggestions
       for improving the WFO’s service, all of them had favorable comments about their
       interaction with WFO staff and the quality of services they received (see page 14).

   • 	 Regional oversight appears adequate. As part of our review, we examined certain
       aspects of the Western Region’s management and oversight of the Missoula WFO.
       Specifically, we looked at the frequency of station inspections and general visits by
       regional management to address questions and provide regional oversight of WFO
       operations, management, and administrative support. We also assessed how well the
       regional office supported the transition of three new employees into the Missoula office
       to fill key positions. We found that regional oversight appears to be adequate (see
       page 20).

   • 	 Actions are being taken to improve the office’s training program. The Missoula
       office has a structured training program with biannual training plans for the office as a
       whole and for each staff member. The science operations officer, who is responsible for
       the WFO’s training and research, also plans to use research studies as a training tool to
       enhance the staff’s knowledge in key areas. However, the officer agreed that individual
       development plans need to be completed for each staff member and training checklists
       should be reviewed and updated (see page 22).

We also found a number of managerial, administrative, and operational deficiencies that require
prompt attention by NWS and WFO managers.

   • 	 Although the Cooperative Observer and Skywarn programs are generally well
       maintained, some improvements are possible. Although the WFO’s Cooperative
       Observer and Skywarn programs, which rely primarily on volunteer observers to report
       on weather events, are well maintained, staff were concerned about the future of these


                                               ii
U.S. Department of Commerce                                                           Final Report IPE – 14225

Office of Inspector General                                                                    September 2001



           programs for two reasons. Specifically, office personnel emphasized that (1) maintaining
           observers for both programs could get more difficult as observers lose interest and retire
           from the program and (2) it is difficult to find or replace observers in isolated locations.
           In addition, office personnel are also concerned about not receiving more NWS direction
           and support regarding the Cooperative Observer Program. While personnel believe that
           NWS officials are planning to update the program, they are uncertain of the direction the
           program is going. More importantly, they did not know whether individual observers are
           to be replaced by automated gages (see page 16).

       • 	 Several resource allocation issues need to be addressed. Although the Missoula WFO
           generally runs efficiently, a few areas require management’s attention. Specifically, the
           office runs the risk of losing incident meteorologists1 to the Geographic Area
           Coordination Centers,2 many WFO personnel consider several forecast products to be
           redundant or unnecessary, and electronic technicians spend too much of their time
           traveling to repair distant weather observation equipment (see page 23).

       • 	 Internal controls are generally adequate, but there are several high cost items that
           are not adequately controlled. Although we found most administrative functions in the
           Missoula WFO were adequately performed due to recently improved administrative
           controls, we identified a couple of areas that require management’s attention.
           Specifically, we found that there are sensitive, high-cost items that are not included on
           the office inventory, for example, All-Terrain Vehicles (ATVs), snowmobiles, and
           enclosed trailers, because they are under the $5,000 threshold. The office also maintains
           excess automated data processing equipment (see page 27).

       • 	 Quality control needs to be more systematic. The Missoula staff was not consistently
           performing quality control reviews of office products before and after they were issued.
           As a result, a few office products have been issued with improper information. While the
           overall quality of office products we reviewed appeared adequate, staff emphasized that
           the accuracy and completeness of products can be improved. WFO management needs to
           emphasize to all forecasters and hydrometeorological technicians that products must be
           reviewed, and a sound quality control system should be consistently applied (see
           page 32).

On page 34, we offer a series of recommendations to the Under Secretary for Oceans and
Atmosphere and the NWS Assistant Administrator to address our concerns.



1
    Incident meteorologists provide on-site meteorological support to firefighters.
2
  Geographic Area Coordination Centers locate and dispatch needed firefighters and support personnel throughout
the 11 geographical areas covered by the GACCs. The GACCs often work with local member agencies at the
National Interagency Fire Center, which includes the Agriculture Department’s Forest Service; the Interior
Department’s Fish and Wildlife Service, National Park Service, Bureau of Land Management, Bureau of Indian
Affairs, and Office of Aircraft Services; and NWS.


                                                            iii
U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001





In its written response to our draft report, NWS generally agreed with and outlined steps it has
taken to address the intent of all but one of our recommendations. NWS officials noted that the
NOAA Personal Property Office advises against adopting the recommendation to place
snowmobiles and All-Terrain Vehicles on its inventory list because these vehicles do not exceed
the accountability threshold of $5,000 and there have been no instances of lost, stolen, or
misplaced vehicles.

The intent of our recommendation was to ensure that high-cost items below the accountability
threshold that have high potential for theft or misuse would be adequately accounted for. As
noted in NOAA’s response, “individual Property Custodians within the Line/Staff/Program
Offices have the flexibility to include items, e.g., snowmobiles/All-Terrain Vehicles, in their
inventory….” This is a reasonable way to address our concerns. Therefore, we are now
recommending that NWS direct all relevant WFO Property Custodians to put all sensitive
property, including snowmobiles, All-Terrain Vehicles (ATVs), and enclosed trailers, on their
inventory list and track and control them accordingly.

Where appropriate, we adjusted the language in our report in response to NOAA’s comments.
We also commend NWS for its aggressive plan of remedial actions to address our findings.




                                                iv
U.S. Department of Commerce                                                Final Report IPE – 14225

Office of Inspector General                                                         September 2001



                                       INTRODUCTION


Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in Missoula, Montana.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if they may be useful or adaptable
for agency managers or program operations elsewhere.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency. Our fieldwork was conducted from
March 26 through March 30, 2001. We also conducted interviews and reviewed files and other
pertinent information at NWS headquarters from March 8 through June 15, 2001. During the
review and at its conclusion, we discussed our findings with the meteorologist-in-charge (MIC)
of the Missoula WFO, the director of NWS’s Western Region, the Assistant Administrator for
NWS, and other NOAA senior managers.


                       OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this inspection was to determine how effectively the Missoula WFO (1) delivers
forecasts, warnings, and other information to its service users, which includes the general public;
(2) coordinates its activities with state and local emergency managers; and (3) manages its
network of observers and volunteer spotters. We also assessed the adequacy of the office’s
management and its internal controls; its compliance with Department, NOAA, and NWS
policies and procedures; and the effectiveness of regional oversight. This is the third in a series
of OIG inspections of WFOs.

In performing our review, we examined pertinent records and documents and interviewed all of
the available staff at the Missoula WFO. We also interviewed the regional director in Salt Lake
City, as well as many representatives from the Department and other federal, state, and local
government agencies. In addition, we spoke with individuals outside of the federal government
who are involved in meteorological activities to obtain their assessment of the services provided
by the Missoula WFO, as well as to elicit any suggestions they had for improving the WFO’s
provision of critical weather information.




                                                 1

U.S. Department of Commerce                                                            Final Report IPE – 14225

Office of Inspector General                                                                     September 2001



                                                BACKGROUND


NWS, an agency within NOAA, has 121 WFOs nationwide. Each office issues local forecasts,
such as periodic zone forecasts, and warnings of severe weather, such as tornadoes, severe
thunderstorms, floods, hurricanes, and extreme winter weather, for its assigned counties. The
offices, where applicable, also support NWS’s marine, aviation, and climatic data collection
programs and prepare guidance for the fire weather program, supporting federal lands
management and wildfire control. Each U.S. county is assigned to a specific WFO for warning
purposes. The offices are responsible for effectively using advanced meteorological technology
to issue weather predictions and continuing to improve the timeliness and accuracy of forecasts
and severe weather and flood warnings to the public.

In April 2000, the Missoula office converted from a Weather Service Office3 to a Weather
Forecast Office. As shown in Figure 1, the Missoula WFO is located adjacent to the U.S. Forest
Service’s Northern Rockies Coordinating Center, which is responsible for locating and
dispatching firefighters and support personnel from the Northern Rockies geographical area to
wildland fires that grow to the point where local personnel and equipment are not sufficient to
contain them.




Figure 1: Missoula WFO


3
    Weather Service Offices generally had fewer staff and covered a smaller warning area than WFOs.


                                                          2

U.S. Department of Commerce                                              Final Report IPE – 14225

Office of Inspector General                                                       September 2001



The WFO currently has a staff of 25, including a management team consisting of the MIC, a
warning coordination meteorologist, a science operations officer (SOO), a data acquisition
program manager, an electronics system analyst, and an administrative assistant. The remainder
of the staff consists of five lead forecasters, six journeyman forecasters, five
hydrometeorological technicians, two electronic technicians, and one service hydrologist. The
WFO’s fiscal year 2001 operating budget, including its annual lease but excluding salaries, is
$271,699.

The Missoula WFO’s county warning area includes 14 counties, 11 in western Montana and 3 in
north central Idaho (as shown in Figure 2). The WFO is located in NWS’s Western Region. The
regional office, located in Salt Lake City, is responsible for 24 WFOs.




Figure 2: Missoula WFO County Warning Area
Source: National Weather Service

The WFO uses various technologies and programs to help protect the citizens in its county
warning area. Radar, satellite, and automated surface observation systems are used to prepare



                                               3

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



forecasts and issue warnings for all types of severe weather. The NWS commissioned the
Advanced Weather Interactive Processing System (AWIPS) in Missoula on February 15, 2000.
AWIPS, an interactive computer system that integrates NWS meteorological and hydrological
data with NWS satellite and radar data, is designed to enable forecasters to prepare and issue
more accurate and timely forecasts and warnings. The WFO’s radar, shown in Figure 3, is
located at the top of Point Six, a mountain about five miles from the WFO that peaks at about
8,000 feet above sea level.




Figure 3: Missoula WFO Radar at the top of Point Six


The office’s fire weather program, considered its most critical activity, provides meteorological
support to wildland fire management agencies for the protection of life and property. This
support includes providing warnings, forecasts, on-site services during wildfires, and
meteorological training for fire management officials.


                                                   4

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



To effectively provide early warnings and collect important climatological data, the WFO must
rely on its many partners. State and local emergency managers are vital components of the
WFO’s efforts to disseminate critical weather information to the public, while the WFO plays an
important role in the state and local officials’ efforts to keep abreast of severe weather events.
Other partners include media representatives, and Skywarn and Cooperative Observer
volunteers.

The office’s Skywarn program, part of a nationwide effort, trains volunteer spotters to provide
the office and the Missoula county warning area with timely, accurate eyewitness severe weather
reports. The Cooperative Observer program uses volunteers to provide daily weather
measurements, including rainfall and snowfall amounts. The meteorological community
considers both programs critical in verifying and collecting data to improve forecast models and
in recording accurate climatic data. After developing weather forecasts and obtaining critical
information from its partners, the office disseminates that information to the public through its
partners, NOAA weather radio, the Internet, and other means.




                                                5

U.S. Department of Commerce                                                              Final Report IPE – 14225

Office of Inspector General                                                                       September 2001



                                    FINDINGS AND CONCLUSIONS


I.       WFO’s Weather Forecasting Is Generally Effective

We examined the Missoula WFO’s performance statistics to determine whether it has been
issuing timely, high-quality products to the public. Each WFO issues general or zone4 forecasts,
severe weather and flood warnings, advisories, and specific forecasts for each of its weather
programs. As shown in Table 1 on page 7, the office’s fire weather, winter weather, and aviation
programs have been timely and accurate, while the severe storms program needs attention. The
probability of precipitation program showed some improvement over the model guidance and its
statistics were generally comparable to the Western Region average. 5 Lastly, the WFO has also
taken steps to improve its hydrology program.

To determine the WFO’s overall effectiveness, we interviewed all WFO personnel and numerous
public officials who work closely with the office. Both groups stated that the office provides
valuable weather services but offered suggestions on how to improve its six main programs.

A.       Most programs have yielded reliable forecasts

The office’s fire weather, winter weather, hydrology, and aviation programs have generally been
effective. Office personnel believe that they have been able to accomplish their mission because
of the commitment of WFO staff and the addition of two forecasters.

Fire Weather Program

The Missoula office provides critical services to firefighters and emergency managers for
wildfire suppression and public safety. The office’s fire weather statistics, its training record,
and comments of the users we interviewed indicate that this program has been successful.



4
  Each WFO has a county warning area that is divided into zones comprising either single or multiple counties that
are often large and/or topologically diverse in mountainous and coastal areas. For each zone, the Missoula office
issues zone forecasts that include temperature (max/min), probability of precipitation (POP), precipitation type,
cloud type, cloud amount, snow amount, and wind direction and speed. The Missoula office issues two seven-day
extended zone packages every day.

5
  POP forecasts document the likelihood, expressed as a percentage, that measurable precipitation (0.01 inch or
more) will occur at any point within a specified forecast area (usually a county or group of counties) over a specific
period of time (typically 12 hours). POP forecasts are compared to model forecasts to determine to what extent
WFO-issued forecasts were more accurate than model forecasts. POP forecasts, which range between 0 and 100
percent, are verified on a point basis over a period of time using rain gages assigned to each WFO. Although gages
will not measure every precipitation event, they will measure the percentage of time that measurable precipitation hit
the rain gage when each POP level is forecast. If the percentage of times measurable precipitation occurs is
significantly above or below that POP level, forecasters are either under or over forecasting and providing less
reliable information to individuals and entities that depend upon the WFO for meteorological information.



                                                          6

U.S. Department of Commerce                                                                    Final Report IPE – 14225

Office of Inspector General                                                                             September 2001



Table 1: Missoula Verification Statistics for 2000
                                      Western Region            Missoula                  6                      7
                                                                                   Better         Worse/Equal
                                         Average                 WFO
Fire Weather Program:
False alarm ratio                                     .26                .08          X
Probability of detection                              .88                .75                             X
Lead time                                     10.30 hours        14.60 hours          X

Winter Weather Program:
False alarm ratio                                     .28                  .10        X
Probability of detection                              .73                  .90        X
Lead time                                      8.59 hours           9.00 hours        X

*Hydrology Program:

Aviation Program:
False alarm ratio                      (nat’l average) .53               0.00         X
Probability of detection               (nat’l average) .15                .24         X

Severe Storms Program:
False alarm ratio                                     .59                  .90                           X
Probability of detection                              .77                  .18                           X
Lead time                                    18.5 minutes          2.3 minutes                           X

POP Program:
Forecasts improved over                              6.7%                6.3%                            X
model guidance
Percent of correct forecasts                       87.3%               87.3%                             X
* No flooding or flash flooding in 2000.

As shown in Table 1, the fire weather false alarm ratio8 and lead time9 statistics have been better
than the average for Western Region offices. Although probability of detection10 statistics are
below the regional average, users stated that the forecasters in Missoula provide timely and




6
    This column shows the statistics that are better than the regional (or national) average. 

7
    This column shows the statistics that are worse than or equal to the regional average. 

8
 The false alarm ratio is the fraction of all warnings that are unverified by office personnel. A high ratio indicates 

either that an office is issuing warnings of events that do not occur or that its efforts to verify forecasts are lacking. 

9
    Lead-time is the interval between when a warning is issued and when an event reportedly occurs. 

10
  The probability of detection shows the fraction of all severe events (i.e., tornadoes and severe thunderstorms) for 

which warnings were issued. Attempting to achieve a high probability of detection by issuing more warnings would
tend to have the undesirable effect of increasing the false alarm ratio.



                                                              7

U.S. Department of Commerce                                                         Final Report IPE – 14225

Office of Inspector General                                                                  September 2001



accurate fire weather watches, warnings, and forecasts and that the WFO’s incident
meteorologists (IMETs)11 provide valuable onsite weather support to firefighters.

The WFO has five certified IMETs—two that regularly attend fires and three that act as backups.
We found that the office’s forecasters who are not dispatched to fires provide valuable fire
weather forecasts while the IMETs attend fires. In fact, after the 2000 fire season, Montana’s
governor praised the Missoula office for its consistently reliable weather information. NWS also
determined that the Missoula office was key to the success of fire weather activities in Montana
and northern Idaho in a study of wildfires during the summer of 2000.12

While users are satisfied with the office’s overall fire weather services, they are concerned about
NWS losing some of its key IMETs just before the upcoming fire weather season. We discuss
this issue in greater detail on page 23.

To improve its fire weather program, the Western Region has begun requiring all of its
forecasters to integrate fire weather responsibilities into their normal duties. As part of this
effort, some of the region’s WFOs were provided additional personnel. The Missoula office was
given two additional forecasters for local and regional fire weather activities, including training
and other IMET responsibilities. These forecasters also supplement the number of qualified fire
weather forecasters in order to maintain the office’s fire weather shifts. Users are hopeful that
the office’s efforts to integrate fire weather forecasting will not dilute personnel, but instead
maintain the office’s reliable and timely fire weather products.

Office personnel offered two suggestions for improving the WFO’s performance during the next
fire weather season. First, they suggested conducting a post-season analysis of the 2000 and
future fire weather seasons similar to an analysis conducted by the Great Falls office, which
consisted of a meeting with its fire weather customers to ensure that its products meet customer
needs. NWS’s fire service assessment team cited the Great Falls post-season customer analysis
as one of eight best practices of the 2000 fire season.13 The MIC should consider performing
such an analysis after future fire weather seasons.

Second, office personnel stated that there was no national policy outlining the shifts and number
of hours that IMETs should work during the fire weather season. Currently, IMETs could
conceivably be deployed for up to 14 days working 16 hours per day, and then return to their
offices and work a midnight shift. Personnel also stated that they would like some flexibility on
the shifts they will work during fire weather season, such as possible relief from midnight shifts,
a day off between fire duty and returning to the office rotation, and administrative leave for


11
 IMETs are Meteorologists who are dispatched to fires. NWS had over 60 IMETs at the end of the 2000 fire
weather season.
12
  Service Assessment, Northern Idaho and Western Montana Summer 2000 Wildfires, National Weather Service,
February 2001.
13
     Northern Idaho and Western Montana Summer 2000 Wildfires, National Weather Service, February 2001.


                                                        8

U.S. Department of Commerce                                                           Final Report IPE – 14225

Office of Inspector General                                                                    September 2001



travel to and from fires. According to NWS officials, national guidelines for IMET shifts are
being developed.

In the area of training, the WFO’s records indicate that nearly all required fire weather training
has been completed by staff who work forecast shifts in the office, as shown in Table 2. While
most required training has been received, most of the recommended training for the non-IMETs
has not. The MIC should determine whether the recommended training for non-IMETs would
improve the office’s efforts to integrate fire weather responsibilities into all forecasters’ normal
responsibilities. If so, the MIC should ensure that the recommended training is provided to all
forecasters.

Table 2: Completed Fire Weather Training for Missoula WFO
 Fire Weather Training       IMETS       Fire        MIC       Warning   SOO      2 Senior     Journeymen
       Activity                         Weather                Coord.            Forecasters   Forecasters
                                        Manager                Meteor.
Baseline: Fire Weather /        X         X           X          X         X         X              X
Wildland Fire Behavior
Local Needs: Terrain,           X          X          X          X                   X              X
Forecasting, RAWS
Red Flag Program                X          X          X          X                   X              X
Narrative Forecasts             X          X          X          X                   X              X
Spot Forecasts                  X          X          X          X                   X              X
National Fire Danger            X          X          X          X                   X              X
Rating System
Advanced Fire Weather /         X          X                     X                   X              X
Fire Behavior
Complex Terrain                 X          X                     X                   X              X
Meteorology
Intermediate Fire Danger        X          X                     X                                  X
Rating System
I-100 Incident                  X          X                     X                                  X
Command System
Advanced Fire Weather           X          X                     X
(IMET) Training
Incident Training               X          X                     X
S-490 Fire Behavior             X          X                     X
First Responder
S-590 Fire Behavior
I-200 Incident Command
System
Pink = required (basic activities all meteorologist have to complete in order to issue fire weather 

products). 

Yellow = recommended (strongly suggested activities because they cover basic fire weather activities in 

more detail). 

Blue = optional (suggested activities because they have been identified as resources to further training and 

understanding of fire weather). 

White = N/A (activity does not apply to people in corresponding categories). 





                                                          9

U.S. Department of Commerce                                                 Final Report IPE – 14225

Office of Inspector General                                                          September 2001



Winter Weather Program

The WFO has also done a good job on its winter weather program. As shown in Table 1 on
page 7, the office’s false alarm ratio, probability of detection, and lead time have been better than
the average for Western Region offices. Moreover, WFO users we spoke with expressed
satisfaction with winter weather warnings and forecasts. Office personnel cited an extensive
knowledge of the area climatology, research on winter weather, and an active spotter network as
reasons for the successful winter weather program.

Office personnel emphasized that winter storms are larger and therefore easier to track with
satellite and surface observations. While satellite and surface observations provide more
predictable results, forecaster knowledge of how winter storms interact with the topography also
helps increase the predictability of these storms. The office relies heavily on its spotter network
for current conditions. It is easier to verify winter events because winter storms are more likely
to be seen by spotters or detected by the office’s auto-remote observation network, and snow is
longer lasting than other forms of precipitation. Recent office research on winter weather storms
has also helped to improve forecasters’ ability to predict winter weather storms and issue
forecasts.

Hydrology Program

The Missoula office also has hydrologic responsibility for its county warning area. As a result,
the office has had an on-site service hydrologist14 since 1994 to oversee hydrology operations,
train office personnel on flash flood and flood warnings, maintain flood forecast points, and issue
other hydrology products.

During the last two years, the office’s hydrologist and other staff members have made
improvements to the hydrology program. Personnel have created seven new flood forecast
points at river gages in the office’s county warning area, providing local communities affected
by flooding with timely and reliable information to help them determine the best course of action
during floods, including whether to use sandbags or evacuate people. They have also changed
flood stage heights at six flood forecast points, in coordination with county, state, and federal
officials.

WFO personnel also have suggested improvements to the hydrology program. They emphasized
that WFOs need a hydrology model for smaller streams to forecast flooding and subsequently
issue flood warnings for smaller streams. While NWS’s River Forecast Centers provide forecast
offices with forecasts for larger rivers, and spotters provide valuable flood stage information
during and after floods, a model for forecasting rapidly occurring flood events at site-specific
areas is needed at the Missoula WFO.

Office personnel also cite a need for additional river and precipitation gages. Currently, there are
sites in the Missoula county warning area that are susceptible to flooding but do not have any

14
     Only selected WFOs have on-site service hydrologists.


                                                         10 

U.S. Department of Commerce                                                               Final Report IPE – 14225

Office of Inspector General                                                                        September 2001



such gages. However, because the high cost of river gages limits the number of additional gages
NWS will purchase, the NWS has successfully worked with the U.S. Geological Survey on a
national basis to share the cost of additional gages. In some cases NWS has purchased telemetry
and phone lines to get data from existing USGS sites.

Aviation Program

The Missoula WFO began submitting official aviation statistics into NWS’s national verification
database in 2000. Previously, it maintained only limited aviation statistics. The office’s current
aviation responsibilities include issuing Terminal Area Forecasts, which outline clouds and
weather conditions over the airports in Butte, Kalispell, and Missoula, Montana. As shown in
Table 1, verification statistics for the aviation program indicate that the office has better
probability of detection and false alarm ratios than the national average.

According to the office staff and users we interviewed, the aviation program at the Missoula
WFO has provided valuable services. From January 2000 through March 2001, the office’s
forecasts have been correct an average of 93 percent of the time, and its improvement over
model guidance was 9.4 percent.

Probability of Precipitation Program

The office’s recent probability of precipitation forecasts were accurate 87.3 percent of the time,
but improvements were possible. While the POP statistics for WFOs involve many factors, two
sound indicators of POP success are an office’s (1) improvement of its forecasts over its model
guidance data, and (2) percentage of correct POP forecasts compared to the model guidance.
While the office had a 6.3 percent improvement over the guidance for April through September
2000, the office’s percentage of correct forecasts only equaled the model guidance percentage.
The percentage of correct forecasts for all Western Region offices was slightly above the model
guidance.

Office personnel cited various reasons for not exceeding the model guidance percentage of
correct forecasts. Mostly, they believe that the office had a slight “dry” bias15 during April
through September 2000; or in other words, they under-forecast the actual precipitation that
occurred. Office personnel stated that a dry bias is not uncommon at forecast offices, and
happens because staff may be inexperienced or poorly trained, or they simply do not fully
understand the local climatology. Forecasters also cited the terrain of Missoula’s county warning
area, the radar angle (see page 12), and the difficulty in predicting such storms as reasons for the
WFO not exceeding its model guidance percentage of correct forecasts. Both office managers
and staff realized that when they under- or over-forecast, they are not providing optimal service
to the public.




15
     An office could have a “wet” bias where they over-forecast the amount of precipitation.


                                                           11 

U.S. Department of Commerce                                                             Final Report IPE – 14225

Office of Inspector General                                                                      September 2001



B.      The severe weather program needs improvement

While the Missoula office has some consistently strong programs, problems with the severe
weather program require management’s attention. From 1997 to 2000, the office’s false alarm
ratio, probability of detection, and lead times for severe storms have steadily declined. Office
personnel attributed this decline to the radar location and the lack of spotters to provide
verification in certain isolated areas of the office’s large county warning area. In addition, office
managers believe that forecasters need additional training and should conduct some research
projects on severe storm forecasting to increase their knowledge and, thereby, provide better
forecasts.

The radar’s location is cited as the key factor for the office’s low severe weather statistics. The
radar is located on a mountaintop at 8,000 feet above sea level, and is pointed slightly up at a
positive 0.5-degree angle. The radar’s positive angle prevents the Missoula WFO from detecting
lower atmospheric conditions in the population centers. Although all NWS radars are set at a
positive 0.5-degree angle, only a few—those located at elevated sites surrounded by
mountainous terrain—have this problem in detecting lower atmospheric conditions. It is worth
noting that the radar in Missoula was once positioned at a negative angle.

NOAA has conducted several research studies on the radar angle and has determined that the
elevated radar locations would generally obtain better forecast data if the angles were lowered
slightly and the effects from lowering the radar angle should not affect the public’s health and
welfare, as argued in the past by opponents of lowering the angle. These prior NOAA studies
have recommended that an engineering study and an environmental impact study16 be conducted
by WFOs contemplating a radar angle change, as well as the issuance of a public information
paper17 on radiation from the radar. Studies indicate that NWS should consider lowering the
angle of selected radars after completing the recommended actions. In its fiscal year 2001
operating plan, the Missoula office has included plans to evaluate its radar angle. These actions
should be completed as soon as possible.

Another factor that contributes to the office’s low severe storm forecasting statistics is the size
and scarce population of the county warning area, which makes it difficult to find a sufficient
number of individuals to verify weather events.18 Office personnel stated that recruiting spotters
in populated sections in their county warning area is challenging and recruiting them in isolated
locations is even more difficult (see page 16). This is because much of Missoula’s county
warning area is public forest or mountainous terrain that is either not occupied or occupied by
individuals, some of who have little desire to be involved in a government activity.



16
   MSD/SSD White Paper – Lowering Lowest Elevation Scan to 0.0 or Neg 0.5, Fall 2000.

17
   WSR-88D Radiation and Biological System Considerations, October 1994.

18
   NWS determines how well it handles its forecasting and severe storm warnings through its verification process,

which essentially matches warnings to actual weather observations and compiles statistical results of forecasting

performance. 




                                                        12 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



Also with few severe weather events, there are few opportunities for the forecasters to gain
experience in identifying such events. This suggests that office personnel need to receive
additional training and to conduct additional research on severe events.



In their written response to our report, NWS officials agreed with our recommendation and noted
that the WFO, in conjunction with the National Severe Storms Laboratory, has completed an
evaluation of the elevation of the radar. The evaluation concluded that “using negative elevation
angles” for the radar shows “the potential for improved detections of low-altitude weather
conditions in surrounding valleys and improved estimates of precipitation amounts throughout
the coverage area.” The paper was submitted for publication in May 2001, but has yet to be
published. NWS also stated that the Western Region would build on the paper by pursuing with
NWS Headquarters the feasibility of conducting environmental and engineering studies in
support of lowering the radar angle and its potential effect on improving detection capability.




                                                13 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



II.    Office Outreach Efforts Have Helped Improve WFO’s Effectiveness

State and local emergency managers in Montana help citizens in their communities prepare for
potential natural and man-made disasters, such as floods, wildfires, and other emergencies, that
may affect public safety. WFO staff are responsible for working with these managers to help
increase public responsiveness to warnings and critical weather, better prepare customers and
partners for potentially dangerous weather events, develop and strengthen partnerships, and
increase customer feedback to enhance NWS services.

The state and local officials spoke highly of the cooperation and service received from the
Missoula WFO. According to the officials we interviewed, Missoula WFO personnel make
themselves available to discuss their forecasts and provide assistance above and beyond the call
of duty. In addition to being generally pleased with the timeliness and quality of the office’s
forecasts and warnings, the officials praised the WFO’s outreach efforts.

In November 1999, the NWS published its Fiscal Year 2000 Outreach Action Plan, which
outlines steps various agency components, including the WFOs, should consider in
accomplishing their outreach goals. The Missoula WFO and its partners work well together in
pursuing these goals.

Our review of the various documented activities during fiscal year 2000 showed that the office is
implementing most of the action items in its plan. For example, after each weather season, the
WFO invites the users in its county warning area to the office for a customer workshop. At these
workshops, WFO customers, such as media representatives and emergency managers, are given
a presentation on what is new in NWS and the WFO. In a workshop conducted during the week
of our visit, customers were able to ask questions on numerous topics, ranging from NWS
terminology to the logistics of efficiently getting forecast information from the WFO.

In addition, in fiscal year 2000, the office trained 109 spotters, 23 of whom were new. WFO
staff also presented 20 public safety presentations before various clubs, groups, and committees
with 419 attendees. Staff took time to visit schools to increase students’ awareness of
meteorology and weather safety. Lastly, tours of the WFO were provided to school groups,
emergency managers, and media representatives.

The office also has good relationships with media representatives. Such relationships are
important because the media is a key element in the WFO’s outreach and information
dissemination efforts. The media representatives with whom we spoke thought very highly of
the WFO’s services and responsiveness. Although some were meteorologists themselves, they
valued the insight and professional opinions of the WFO staff. During fiscal year 2000, the staff
in Missoula gave 32 interviews to representatives of television, radio, and print media on various
subjects, including the Skywarn and Cooperative Observer programs, Severe Weather
Awareness Week, and the WFO’s general services and operations.

The office’s outreach efforts have been effective in improving citizens’ awareness of weather
terminology, severe weather risks and precautions, and NWS products and services in the


                                                14 

U.S. Department of Commerce                                            Final Report IPE – 14225

Office of Inspector General                                                     September 2001



Missoula county warning area. In addition, the efforts have allowed the WFO to form excellent
relationships with emergency officials, the media, and schools as a means of enhancing the
office’s public awareness activities.




                                              15 

U.S. Department of Commerce                                                    Final Report IPE – 14225

Office of Inspector General                                                             September 2001



III.	   Although the Cooperative Observer and Skywarn Programs Are
        Generally Well-Maintained, Improvements Can Be Made

Although the WFO’s Cooperative Observer and Skywarn programs are well maintained, staff
were concerned about the programs’ future. The Cooperative Observer Program is a nationwide
weather and climate monitoring network of almost 12,000 volunteer citizens and institutions.
Each observer regularly reports temperature and rainfall amounts to the local WFO so that
forecasts and warnings can be issued and the climate of the United States can be recorded in
order to, among other things, help improve the accuracy of the agency’s forecasts. The
SKYWARN program trains private citizens to provide forecast offices with timely, accurate
severe weather reports. Having worked hard to establish strong programs at the WFO, office
personnel emphasized that maintaining observers for both programs could become more difficult
as it is difficult to recruit spotters in isolated locations. In addition, staff are unsure of the future
direction of the Cooperative Observer Program.

A. 	    Staff is concerned about losing key Cooperative Observer sites

Missoula personnel have a well-organized Cooperative Observer Program but are concerned
about sustaining it. WFO personnel visit each of the office’s 90 sites at least annually to
maintain observer equipment. In addition, observers stated that they are happy with the training
and service that they have received. However, both office personnel and users had some
concerns that need to be addressed.

Concerns about attracting and retaining observers

Office personnel are concerned about losing cooperative observers and not being able to replace
them. The office’s county warning area encompasses numerous mountainous and forested areas.
Office personnel stated that because recruiting observers for these areas is difficult, it is
important to retain the current observers as long as possible. Unfortunately, we were told four of
the 90 current observers have decided to no longer be observers for various reasons. While this
is not an alarming number, office personnel emphasized that many of the office’s observers may
need to be replaced during the next 5 years. The departure of even a few observers hurts the
office’s data collection of public information and verification of office forecasts and warnings.

The office has reportedly lost observers because of their advancing age, relocation to other areas,
and their belief that the system for inputting daily observations is cumbersome. Every day,
observers use the telephone to input their observation data. Some observers who find this system
cumbersome have stopped inputting their daily observations in favor of just sending the monthly
report. Such actions reduce the number of observations used daily by forecasters. Office
personnel believe that a more simplified user interface that does not require too much data entry
or that is voice-activated may be needed to maintain observers’ interest and input.

We attempted to determine what improvements to this program are necessary and reasonable.
For example, we questioned whether the office could step up observer recruitment efforts, pay



                                                   16 

U.S. Department of Commerce                                                             Final Report IPE – 14225

Office of Inspector General                                                                      September 2001



more observers,19 or issue a cooperative observers newsletter. It appears that enough personnel
are involved with site visits. The office has a primary and secondary person for site visits, and
one of the office’s forecasters is being trained to visit observer sites and provide training.

Office personnel emphasized that few people are willing to assume the responsibility of taking
weather observations every day, year after year. They emphasized that in parts of their county
warning area, some people are suspicious of government activities and not likely to be interested
in becoming observers. However, office personnel stated that some people may be recruited if
paid, or if currently paid, an increase in pay might entice them to remain observers. The office
currently has only three paid observers.

Some office personnel thought that an observers newsletter was a good idea. While the office
issues a SKYWARN newsletter, one does not exist for observers. Office personnel stated that
such a newsletter could maintain or increase interest in the program and perhaps attract new
observers.

Concerns about NWS support for the program

In 1998, the National Research Council found that the nationwide Cooperative Observer
Program was struggling because of insufficient funding, aging equipment, insufficient resources,
and poor management oversight.20 The council found that the program had been hampered by
technological, organizational, and budgetary factors, and that modernization would require
substantial funding for equipment, ongoing operations, and maintenance.

The Missoula WFO staff is also concerned about not receiving more NWS direction and support
regarding the Cooperative Observer Program. While they believe that NWS officials are
planning to update the program, they are uninformed about where the program is heading. For
example, they did not know whether NWS plans to replace individual observers with automated
gages. We believe that NWS needs to communicate its plans for the program to field personnel.

Office personnel also cited two examples of needed changes to the national program. First, as
noted previously, they believe that NWS should develop a more user-friendly system for
inputting daily information from observers because users have made numerous complaints about
the complexity of the current input system. Office personnel stated that some NWS personnel
developed various computer programs to input daily observations, but that users found these
programs complicated to use. The personnel suggested that users need a simple interface, such
as telephone or e-mail, which allows them to send data to the office. Western Region officials
stated that the Central Region is evaluating a web-based approach for daily entry of weather data.

Second, office personnel raised several concerns with the NWS’s new system for tracking a
cooperative observer’s station history and maintenance record. Office personnel stated that there
19
  A few observers in the Missoula county warning area, as well as in other areas, are paid a nominal fee to cover
incidental costs associated with collecting and reporting observations.
20
     Future of the National Weather Service Cooperative Observer Network, National Research Council, 1998.


                                                         17 

U.S. Department of Commerce                                                         Final Report IPE – 14225

Office of Inspector General                                                                  September 2001



are not enough examples in the manual to show them how to properly input information to add to
the station’s history and maintenance record.

B.         Office faces difficulties in locating Skywarn spotters in remote areas

The Weather Service Operations Manual states that forecast offices must emphasize the
development and maintenance of local severe storm spotter networks.21 Skywarn spotters
observe and detect changing weather conditions, report significant weather events to the WFOs,
and serve as contact points in their areas. Although office forecasters receive automated data
from radars, surface instruments, and satellites, forecasters often must infer actual surface
conditions. As a result, reports from Skywarn spotters help provide office personnel with the
complete weather picture for forecasts and warnings.22 The Skywarn program in Missoula is
well-organized and has provided valuable information to office personnel. Moreover, over the
last six years, office personnel have increased the number of spotters from 65 to 436. Despite
this growth in the number of spotters, office personnel stated that certain remote or scarcely
populated locations continue to lack spotters.

The warning coordination meteorologist at each WFO is primarily responsible for recruiting,
training, and maintaining the office’s spotter network. Staff in Missoula confirmed that
recruiting spotters for isolated areas presents a constant challenge in a county warning area with
numerous mountain and forested areas.

Historically, spotters reported significant weather such as tornadoes, large hail, and heavy snow,
and the reports would be used to prepare forecasts and warnings. Lacking spotters in certain
locations prevents office personnel from verifying such events. Office personnel believe that a
lack of spotters in certain locations is one factor for their declining severe weather statistics over
the last four years. (See page 12 for a further discussion of the office’s severe weather statistics.)

While Missoula personnel have expanded and improved the office’s spotter network, a constant
effort is needed to recruit spotters in remote areas. The MIC should consider employing other
methods to recruit spotters in remote areas, including issuing public service announcements on
the importance of the spotter network and arranging for promotions on television and radio
stations.



In their written response, agency officials agreed with our recommendation and stated that the
WFO has an active outreach committee to brainstorm ideas for recruiting and retaining Skywarn
Spotters. A new proposal has been introduced to include day trips to more remote areas to
recruit spotters. In addition, the local Skywarn newsletter will be revamped, to include news on
observers’ activities, and will also be sent to all observers. NOAA also noted that the Western
21
     Severe Storm Reporting Networks, WSOM Chapter B-21, March 9, 1982.
22
  Integrating the Spotter Program into the Modernized National Weather Service, Mark H. Strobin, John
Livingston, and Kenneth Holmes, NWS, April 22, 1997.


                                                      18 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



Region is in the process of tailoring an existing Central Region web-based application that will
provide a more user-friendly method of data entry for cooperative observers at Internet-ready
locations in the Western Region. The Missoula WFO will be used as a test site for the new
application.




                                                19 

U.S. Department of Commerce                                                          Final Report IPE – 14225

Office of Inspector General                                                                   September 2001



IV.        Regional Oversight Appears Adequate

As part of our review, we examined certain aspects of the Western Region’s management and
oversight of the Missoula WFO. Specifically, we looked at the frequency of station inspections
and general visits by regional management to address questions and provide oversight of WFO
operations, management, and administrative support. We also assessed how well the regional
office supported the transition of three new employees—the MIC, the SOO, and the
administrative assistant.

Regional oversight appeared to be adequate. Regional division chiefs have conducted three
station inspections23 of the Missoula WFO within the last three years on various WFO
operations. In 1998 the Meteorological Services Division Chief and the Hydrological Services
Division Chief conducted a review of the WFO’s entire operations and reported their findings to
the Western Region Deputy Director. During their review, they interviewed office staff and
external users, such as the Missoula County Sheriff and local media. They examined the Fire
Weather, Cooperative Observer, Skywarn, and Hydrology programs, as well as administrative
services and information technology (IT) systems. Although they highlighted some concerns of
the office staff and customers, like the ability to maintain the Cooperative Observer Program
with fewer people working on it, they reported that they were highly impressed with the WFO’s
efforts and that there were “no major problems.”24

In 1999 and 2000, the region’s Systems Operations Division chief conducted similar, yet less
comprehensive, reviews of specific operations of the WFO. During his 1999 review, he
examined several programs, including Automated Surface Observing Systems, the Cooperative
Observer Program, and equipment maintenance. He also reviewed some office files and the
station duty manual. He concluded in his report that overall the programs at the Missoula WFO
were very well managed. The chief’s 2000 review focused only on the Cooperative Observer
Program. He reviewed station records, the Cooperative Observer Program vehicles, and the pre-
and post-procedures for station visits, and made recommendations to improve the program. We
were told that there were also four other visits made by regional staff between 1998 and 2001
that were not station inspections, but rather general office visits. No formal reports were written
on these visits. By making regular office visits, the regional office has helped maintain effective
office operations.

Recently, the office was assigned a new MIC, SOO, and administrative assistant. The regional
office facilitated their transition by providing them with the needed support through periodic
conference calls and other forms of communication. Before our visit, the regional office
provided the WFO with an administrative guide as a reference that contains a list of points of
contact and other support documents. Office personnel also receive assistance from the regional
office with other office functions. For example, the electronic systems analyst receives periodic

23
  Station inspections are internal NWS reviews that, among other things, evaluate a WFO’s adherence to NWS
policies in various areas, including reviews of systems and equipment, the Cooperative Observer program, and
surface observations.
24
     August 25, 1998, “Trip Report” of the Missoula WFO.


                                                       20 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001



memos on updates for maintenance of vehicles and information technology systems; the newly
appointed administrative assistant receives frequent guidance on the office’s administrative
operations. It is apparent that the Western Region is closely involved with the operations of the
Missoula WFO, and that this involvement has helped the Missoula office maintain effective
programs.




                                                21 

U.S. Department of Commerce                                                Final Report IPE – 14225

Office of Inspector General                                                         September 2001



V.     Actions Are Being Taken to Improve the Office’s Training Program

In January 2001, the Missoula office hired a new science and operations officer, who is
responsible for office training and research, including evaluating each staff member’s operational
strengths and weaknesses, and monitoring their training received and needed. The Missoula
office has a structured training program with biannual training plans for each staff member.
However, the SOO stated that current individual development plans need to be completed for
each staff member and that training checklists should be reviewed and updated.

The office’s biannual training plans outline the generic training activities proposed for the
ensuing six-month period. The plans list specific training modules that are needed by all staff
members and specific drills and modules by training area. Although the plan for April through
September 2000 listed training activities for each staff member, the last two plans have not done
so because this information is to be provided by the new individual training plans that are being
developed. Instead, the SOO has listed training activities by specific area.

We believe that the SOO’s proposed training agenda will enhance the office’s training program.
He has determined that office personnel need additional training for issuing severe storm
forecasts and has also suggested various research projects to improve forecasters’ knowledge in
this area. He has incorporated necessary requirements and suggestions into the office’s current
biannual training plan. The latest plan requires that all forecasters be trained to work the hydro
meteorological desk and schedules all staff members to receive the training courses required for
their particular positions. The plan also encourages all staff members to take some computer
training classes and participate in local research projects.

For the staff’s individual development plans, each employee will document specific training and
elective activities that they believe will enhance their job performance. Each elective activity
will be assigned a point total, and each employee will establish his or her point goal for the
upcoming year.



In their response to our report, agency officials agreed with our recommendation and reported
that Individual Development Plans (IDPs) have been completed for all but two Missoula WFO
employees. IDPs for the remaining two employees are in the process of being completed. They
also noted that after completing the plans, employees were informed that IDPs are flexible
documents that provide a guide to training and will be reviewed periodically and revised as
necessary.




                                                22 

U.S. Department of Commerce                                                          Final Report IPE – 14225

Office of Inspector General                                                                   September 2001



VI. 	   Several Resource Allocation Issues Need to be Addressed

Although the Missoula WFO generally runs efficiently, a few areas require management’s
attention to maintain or increase the efficiency and effectiveness of its operation. Specifically,
the office runs the risk of losing incident meteorologists to the interagency Geographic Area
Coordination Centers (GACC),25 many office personnel consider several forecast products to be
redundant or unnecessary, and electronic technicians spend too much time traveling to repair
distant ASOS equipment.

A. 	    The possibility of losing incident meteorologists to the
        Geographic Area Coordination Centers is a serious NWS concern

As stated earlier, incident meteorologists play a key role in the WFO’s efforts to assist fire
officials prevent and control wildland fires. In fiscal year 2000, the NWS had 65 IMETs who
were certified or in training. IMETs provide on-site meteorological support to firefighters, who
need up-to-the-second forecasts of wind direction and speed, precipitation, and other weather
information. The majority of IMETs in NWS are at the GS-12 level. To reach the GS-13 level,
they typically must become lead forecasters and relinquish most of their IMET responsibilities.

Various GACCs recently issued vacancy announcements for fire weather meteorologist positions
at the GS-12 and GS-13 levels. Incumbents in these positions serve as geographic area fire
weather managers for the federal wildland fire agencies in the GACC. According to meeting
notes of the Northern Rockies Coordinating Center,26 there may be as many as two fire
meteorologists hired at each of the 11 GACCs. Coordinating center officials expressed concern
that WFOs may experience a degradation of fire weather services if a number of IMETs move to
GACCs to receive a promotion. NWS officials stated that the GACCs have already attracted a
number of NWS IMETs.

In an area such as Missoula, where fire weather forecasting is vital to the protection of life and
property, losing IMETs to the GACCs could have a serious impact on the office’s ability to
provide adequate fire weather forecasting services. According to NWS officials, since our
inspection, one Missoula IMET has accepted a position with a GACC as a fire weather
meteorologist. In an effort to deal with this potential problem, NWS has reportedly begun both
recruiting forecasters interested in becoming IMETs and training new IMETs. NWS should
continue to develop and implement, if necessary, a contingency plan to address this potential
problem.


25
  Geographic Area Coordination Centers locate and dispatch needed firefighters and support personnel throughout
the 11 geographical areas covered by the GACCs. The GACCs often work with local member agencies at the
National Interagency Fire Center, which includes the Agriculture Department’s Forest Service; the Interior
Department’s Fish and Wildlife Service, National Park Service, Bureau of Land Management, Bureau of Indian
Affairs, and Office of Aircraft Services; and NWS.
26
  The Northern Rockies Coordinating Center is the GACC that encompasses the Missoula WFO county warning
area.


                                                       23 

U.S. Department of Commerce                                                  Final Report IPE – 14225

Office of Inspector General                                                           September 2001



B.     The state forecast product may be unnecessary or duplicative

In each state, one WFO serves as the state liaison office. In Montana, that office is in Great
Falls. The state liaison office is responsible for coordinating statewide weather issues and
providing a unified weather service voice to state officials on weather-related topics. In
Montana, as in other states, the Great Falls office issues a state forecast product, which is
generally used by the media and individuals traveling within the state. The state forecast product
for Montana, issued twice daily, provides a five-day extended forecast for three regions: East of
the Continental Divide, South West Montana, and West of the Continental Divide.

Missoula WFO personnel contribute to the production of the product. However, several of them
expressed concern that the product duplicated zone forecasts and consumes time that they could
better use doing other work, such as quality control.

We spoke to the MIC in Great Falls to get more information on the product. Although he
considered the state forecast product valuable and believed that it should be retained, he agreed
that the product was vague because of the state’s varied climatology. Specifically, Missoula
prepares localized forecast information twice daily for the area in Montana west of the
continental divide. The MIC in Great Falls emphasized that the state forecast product does not
provide specific detailed information from each office’s extended zone forecast.

The information provided in the state forecast product is vague, often forecasting temperatures
within a 20-degree range. The benefits of the state forecast product do not appear to justify the
duplication of effort and time taken by the Missoula staff to contribute to the product, especially
considering the detailed forecasts available in the WFO’s zone forecasts. NWS officials should
conduct an evaluation to determine whether it continues to be a beneficial product to offer NWS
users in Montana.

C.     Electronic technicians can reduce travel time required for ASOS repairs

Part of the electronic technicians’ job is to “perform corrective maintenance in a timely manner
when notified of an equipment failure.” Among the equipment that the technicians are
responsible for repairing is the office’s five Automated Surface Observing Systems (ASOS).
One of the ASOS sites is located at the WFO, but each of the other four is located about 120
miles away, as shown in Figure 4.

Only a few WFOs currently have a full spare parts kit; the Missoula WFO has only a partial
spare parts kit. Because the electronics technicians often do not have spare parts readily
available to repair the equipment after traveling to the site to determine the cause of the failure,
they often must return to the office to order the parts, and then return to the site to repair the
equipment. Consequently, the electronic technicians in Missoula spend a significant amount of
time traveling to and from the office’s ASOS sites, as shown in the Table 3 on page 25.




                                                 24 

U.S. Department of Commerce                                                Final Report IPE – 14225

Office of Inspector General                                                         September 2001





Figure 4: ASOS Sites
Source: NWS Missoula WFO

Table 3: Electronic Technicians’ Travel Time (Hours)
                      NWS Average         Western Region Average                Missoula WFO
Fiscal Year 1999                   670                        913                          1170
Fiscal Year 2000                   602                        849                           999

When we discussed this issue with the Western Region director, she agreed with our suggestion
that her office perform an analysis to determine which ASOS parts are more prone to failure and
therefore need replacement. The regional office will then provide a spare parts kit to the
Missoula office based on that analysis, putting the electronics technicians in a better position to
repair equipment on their first visit to a site and reduce the amount of unproductive travel time.
The regional office should ensure that the WFO is provided a spare parts kit that better meets its
needs.




                                                25 

U.S. Department of Commerce                                               Final Report IPE – 14225

Office of Inspector General                                                        September 2001





In their written response, agency officials agreed with our recommendations in this section and
have taken appropriate action. They determined that the State Forecast Product is still a valuable
product for the Missoula WFO to issue. They commented that there are customers within
Missoula’s area of responsibility who need to know the overall weather forecast for a larger area.

In addition, NWS officials noted that they performed an analysis of ASOS equipment to
determine which parts need to be replaced most often and should, therefore, be included in a
spare parts kit. As a result of the analysis, all WFO limited spare parts kits will gradually be
brought up to full complement. The WFO received a ground-to-air radio, and six of the 37 parts
needed to complete its kit are under procurement and will be delivered by the end of the fiscal
year. The final 31 spare parts will be provided by the end of FY2002, contingent upon funding
availability.




                                               26 

U.S. Department of Commerce                                                        Final Report IPE – 14225

Office of Inspector General                                                                 September 2001



VII. 	 Internal Controls Are Generally Adequate, but Improvements
       Are Needed in Some Areas

Although we found most administrative functions in the Missoula WFO to be performed
adequately due to recently improved administrative controls, we identified several areas that
require management’s attention. Specifically, we found that some sensitive and high cost items
are not included on the office inventory, the office maintains excess computer equipment, and
quality control over forecast products is not consistent and systematic.

A. 	    MIC has recently implemented improved administrative controls

Our review of the WFO’s administrative operations showed that the management of supplies,
bankcards, procurement, time and attendance, vehicles, travel, and security were generally good.
Although we have a few concerns with the inventory system, internal controls in that area were
generally adequate. The MIC recently tightened controls over these areas as a result of findings
and recommendations from our inspection report on the Raleigh WFO.27 For example, the MIC
reduced the number of holders of bankcards, established logs for recording the use of official
government vehicles, and took steps to better secure sensitive property.

Number of bankcard holders reduced

One of the first improvements the MIC made after arriving at the Missoula WFO was to reduce
the number of bankcard holders from 15 to 10. According to the Commerce Acquisition
Manual, the MIC, as the purchase card approving official, is responsible for ensuring that
cardholders complete and reconcile Purchase Card Ordering Logs and Statements of Account28.
She is also responsible for reviewing object class codes and accounting codes. After reviewing
the purchase history of each cardholder, the MIC found that many accounts in the office had
little or no activity and saw no reason for 15 of the office’s 25 personnel to have purchase cards.
Thus, the administrative assistant now orders most needed supplies.

As a result of the MIC’s actions, the remaining 10 bankcard holders are the administrative
assistant, one hydrometeorological technician (the former administrative assistant), the warning
and coordination meteorologist, the electronics systems analyst, two electronics technicians, the
data acquisitions program manager, two forecasters who work on the cooperative program, and
the service hydrologist. During our visit to Missoula, the MIC told us that she plans to further
reduce the number of cardholders. We agree with her plans.




27
 Raleigh Weather Forecast Office Provides Valuable Services but Needs Improved Management and Internal
Controls, Final Inspection Report No. IPE-12661, Office of Inspector General, September 2000.
28
 Commerce Acquisition Manual, Part 13, Section 301, “Purchase Card Procedures: Roles and Responsibilities.”
April 5, 2000.


                                                     27 

U.S. Department of Commerce                                                          Final Report IPE – 14225

Office of Inspector General                                                                   September 2001



Vehicle log recently established

The Missoula WFO has four government vehicles29 that are used by the management staff and
electronic technicians. The MIC improved controls by requiring the use of General Services
Administration (GSA) motor vehicle logs for each vehicle to record travel times, dates, and
destinations; purpose of travel; and mileage used when on official government business. The
NWS Western Region Administrative Guide states, “each office will maintain a GSA motor
vehicle log for each GSA vehicle assigned to the office.”

Because the vehicle log was implemented in accordance with regional guidance issued only
about 2 weeks before our visit30, we were unable to assess whether the vehicles were being used
appropriately and whether the WFO actually needs four vehicles. However, now that the MIC
can account for the use of all vehicles, she should periodically review the log to ensure that the
vehicles are being used in an appropriate manner and to determine whether there is a
demonstrated need for four vehicles.

B.         Office inventory system needs some management attention

As a part of our review of the WFO’s administrative controls, we examined a sample of items on
the office’s inventory list and were able to identify all items selected. In fact, the MIC took steps
to ensure that sensitive property was secured in a locked cabinet. We also examined a sample of
equipment in the office to determine whether the items were included on the office’s official
inventory list. We found that certain non-expendable and high-cost items, like snowmobiles, are
not included. We also found that the office maintains excess computer equipment that is no
longer in use.

Sensitive property is now secured in a locked cabinet

The MIC instructed the staff to secure all of the office’s portable sensitive property, such as
digital cameras, laptops, camcorders, printers, and disk drives. All items that could be easily
misplaced or stolen are locked in a cabinet that only she and two other staff members have
access to. She also created a log in which employees are asked to record when items are taken
and returned. Chapter 4 of the Department’s Personal Property Management Manual defines
sensitive items as “non-expendable items that may be converted to private use or have a high
potential for theft.” It states, “supervisors are responsible for the security of personal property
below $2,500 and should use a responsible method to ensure its accountability.” As a result of
securing and tracking items that could be stolen, the MIC can now better account for sensitive
property and there are tighter controls over such inventory.




29
     The Missoula WFO leases three of the vehicles from GSA, and the fourth is owned by NWS.
30
     Western Region Administrative Guide, ROML W-03-01 issued and effective March 15, 2001.


                                                        28 

U.S. Department of Commerce                                                 Final Report IPE – 14225

Office of Inspector General                                                          September 2001



Certain non-expendable, high-cost items are not included on WFO inventory list

Several non-expendable, high-cost items maintained at the WFO, such as snowmobiles, 4-wheel
All-Terrain Vehicles (ATVs), and enclosed trailers, are not included on its inventory list.

According to the electronics systems analyst who is the designated property custodian,
snowmobiles, ATVs, and the enclosed trailer were on the office’s inventory list last year but
were removed in accordance with an April 26, 2000, memo issued by Western Administrative
Support Center that stated, “Property items to be included in the inventory are all nonexpendable
items (items with a life expectancy exceeding one year; that have a continuing use as self-
contained units…) that are either sensitive or cost $5,000 or more.” Attached to the memo was a
list of sensitive items that should be included on the office’s inventory, such as laptops, digital
cameras, and printers. Snowmobiles, ATVs, and trailers were not listed. In addition, because
items in question cost slightly less than $5,000, NOAA does not consider them accountable
property.

As a result, the WFO does not have a complete and accurate inventory of “non-expendable items
that may be converted to private use, or have high potential for theft.” According to NOAA’s
inventory instructions, individual Property Custodians within line, staff, or program offices have
the flexibility to include additional items in their inventory if accountability is a problem. Thus,
we recommend that NWS officials direct all Property Custodians at WFOs that have
snowmobiles, ATVs, and enclosed trailers, to include these items on their office’s inventory list
and track and control them accordingly.

Office has excess computer equipment

The office maintains excess laptops, printers, external disk drives, and other computers and IT
equipment in a storage facility adjacent to the office. The office has been slow in surplusing
such equipment. In addition, the office cannot account for all of the equipment because,
according to the property custodian, some of it is no longer on the inventory list or was never
added to it.

According to the Department’s Personal Property Management Manual:

     “all property (whether accountable or not) that is no longer needed in an office
     should be turned in to the property custodian, together with Form CD-50, ‘Personal
     Property Control’ or CD-509, ‘Property Transactions Request’ for redistribution or
     disposal. Such forms shall be used to make changes to the records and accounts for
     accountable property, and should also be used to establish records of property
     stored for subsequent redistribution or disposal.”

Currently, the office is storing equipment in storage space that could be used to store other items.
The office should surplus, dispose of, or return to the regional office all excess equipment,
according to the procedures set forth in the Department’s manual and NWS policy.



                                                 29 

U.S. Department of Commerce                                                       Final Report IPE – 14225

Office of Inspector General                                                                September 2001





In their written response, agency officials agreed with all but one of our recommendations in this
area. NOAA officials disagreed with our recommendation to revise NOAA’s inventory
instructions regarding sensitive items, to include property such as snowmobiles, ATVs, and
enclosed trailers. They did not believe that these items should be added to the sensitive list
because they do not exceed the accountability threshold, and there have been no known instances
of lost, stolen or misplaced vehicles. However, they noted that the Line/Staff/Program Offices
have the flexibility to include these items as accountable property.

NWS officials concurred with our recommendation to add all sensitive items to the office’s
inventory list, and stated that they will request NOAA Headquarters to revise its guidance. NWS
said that it would add the items 60 days after receiving the revised regulatory guidance from
NOAA. Based on NOAA’s response, which provides a reasonable alternative to address our
concern, we are now recommending that NWS direct all relevant WFO Property Custodians to
add sensitive items, including snowmobiles, ATVs, and enclosed trailers, to their office’s
inventory list and track and control them accordingly. This action will meet the intent of our
recommendation, which is to adequately account for sensitive federal property.

NWS officials also agreed with our recommendations that the MIC should periodically review
the vehicle log to evaluate whether there is a need for four vehicles, and surplus, dispose of, or
return all excess equipment to the regional office. They reported that the MIC periodically
reviews the vehicle log and has determined that there is a demonstrated need for all four
vehicles. NWS also reported that all excess equipment at the WFO has been surplused, disposed
of, or returned to the regional office.

C.      Information technology controls are improving

The office recently appointed one of the office’s electronic technicians as the new IT security
officer. Before this appointment, the office’s electronics systems analyst had been the de facto
IT security officer, implementing and maintaining much of the office’s IT controls and
procedures, and ensuring that IT security issues were being addressed. We believe that the
electronics systems analyst initiated a meaningful IT security program. However, the new IT
security officer needs to formalize a comprehensive and ongoing IT security program.

In August and December 1999, NWS issued a new AWIPS security policy and an overall NWS
IT security plan.31 Both documents require the MIC to maintain an adequate security program,
including maintaining the appropriate level of security for IT resources, periodically reevaluating
security levels, ensuring that only approved hardware and software are installed, and designating
an office IT security officer. The new security plan greatly expands system security



31
  Advanced Weather Interactive Processing System (AWIPS) Information Technology Security Policy, August
1999, and National Weather Service Information Technology (IT) Security Plan, December 1999.



                                                    30 

U.S. Department of Commerce                                                        Final Report IPE – 14225

Office of Inspector General                                                                 September 2001



D.      Quality control needs to be more systematic

Some Missoula personnel have not been reviewing products before and after they are issued. For
example, office personnel stated that they do not consistently ask each other to review products
before they are sent to the Console Replacement System for distribution.36 As a result, some
office products contained misspelled and missing words and some content inaccuracies, such as
incorrect dates, that the shift supervisor should have corrected before issuance. Office managers
stated that quality control of office products is not as consistent as it could be.

The Weather Service Operations Manual provides WFOs with general requirements for the
quality control of products. The manual states that each office should establish quality controls,
including training on the operational use of update criteria, proper coding, and clear wording of
products. However, the following problems were noted with the office’s quality control efforts:
office products are not consistently read by other staff members, inconsistencies sometimes
occur between public and aviation forecasts, zone products often go directly to the Console
Replacement System for distribution, and the hydro-meteorological technicians do not
consistently listen to products from that system to detect errors or mistakes.

Office personnel stated that without a consistent quality control process, words are misspelled,
and inadvertently added or removed. During our review of a sample of products issued by the
WFO, we found two examples of errors that probably would have been detected by consistently
applied quality control procedures. First, in January 2001, the office issued a product that
mentioned Christmas as if it were forthcoming. Someone in the office caught the error after the
product was issued. Second, in March, a zone forecast was issued without the extended forecast.
Again, this error was caught and corrected after the product was issued.

Office personnel emphasized that the Console Replacement System requires significant oversight
to ensure that accurate products are issued to the public. The system reads and issues text
exactly as office personnel write it. While the overall quality of office products has been
adequate, quality control procedures should be more consistently applied. The office has two
people whose focal point duties include quality control of zone and aviation products. To
maintain quality control, both forecasters and hydro-meteorological technicians need to spend
more time reviewing products before they are issued.



In its written response, NWS agreed with our recommendation and reported that it has taken
action. NWS officials noted that the Missoula WFO’s risk assessment has been revised to
adequately reflect local conditions, and penetration tests have been performed by the NWS
Western Region Headquarters. They also reported that all unneeded services have been disabled,
and the WFO is in conformance with NWS IT security guidelines and policies.
36
  The Console Replacement System is a relatively new personal computer-based broadcasting console installed at
each NWS office that automatically translates written NWS forecasts and warnings into synthesized voice
broadcasts over NOAA Weather Radio, a nationwide network of radio transmitters broadcasting continuous weather
information directly from WFOs across the country.


                                                     32 

U.S. Department of Commerce                                             Final Report IPE – 14225

Office of Inspector General                                                      September 2001



In addition, NWS agreed with our recommendation to conduct ongoing quality control over
weather forecast products. Officials stated that the WFO has updated its Station Duty Manual to
formally require that all products be reviewed by another staff member prior to issuance. All
WFO staff are aware of the new guidance and have read and initialed the updated section in the
Station Duty Manual.




                                              33 

U.S. Department of Commerce                                                 Final Report IPE – 14225

Office of Inspector General                                                          September 2001



                                    RECOMMENDATIONS


We recommend that the Assistant Administrator for NWS instruct the Regional Director to take
the following actions:

1. 	 Ascertain why certain statistics for the office’s Severe Storm program appear to be below the
     regional average and determine what corrective actions, if any, are necessary. One
     possibility is conducting appropriate environmental impact and engineering studies on radar
     radiation and the feasibility of lowering the angle of the Missoula radar. Based on the results
     of those studies and outreach, determine whether the angle of the Missoula radar should be
     adjusted (see page 12).

2. 	 Evaluate the benefits of the state forecast product and determine whether the Missoula WFO
     should continue to assist in its production (see page 24).

3. 	 Perform an analysis to determine which ASOS parts are more prone to failure and therefore
     need replacement. Provide the WFO with an appropriate spare parts kit based on that
     analysis (see page 24).

We recommend that the Assistant Administrator for NWS instruct the MIC to take the following
actions:

1. 	 Explore other ways to maintain and expand the pool of observers and Skywarn volunteers.
     For example, consider conducting public service announcements and simplifying the process
     for cooperative observers to report the data they gather (see page 16).

2. 	 Clarify to all staff members how the new individual development plans will be used and
     interpreted and ensure that staff members receive appropriate training, based on their plans
     (see page 22).

3. 	 Periodically review the vehicle log to ensure that the vehicles are being used in an
     appropriate manner and to determine whether there is a demonstrated need for the current
     number of vehicles (see page 28).

4. 	 Ensure that all sensitive items are added to the office’s inventory list, including snowmobiles,
     4-wheel ATVs, and trailers, and are tracked and controlled accordingly. Other MICs at
     WFOs that have similar sensitive property should also be instructed to revise their inventory
     lists accordingly (see page 28).

5. 	 Surplus, dispose of, or return all excess equipment to the regional office, according to the
     procedures set forth in the Department’s Personal Property Management Manual and NWS
     policy (see page 29).




                                                 34 

U.S. Department of Commerce                                                Final Report IPE – 14225

Office of Inspector General                                                         September 2001



6. 	 Revise the office’s IT risk analysis to clearly show the risk of outside intrusion and to
     determine whether the office needs to take additional steps to detect and prevent outside
     intrusion (see page 30).

7. 	 Conduct ongoing quality control over weather forecast products and emphasize to all
     forecasters and hydrometeorological technicians that products must be reviewed for quality
     before being issued (see page 32).




                                                35 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              36 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              37 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              38 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              39 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              40 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              41 

U.S. Department of Commerce          Final Report IPE – 14225

Office of Inspector General                   September 2001





                              42 

U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General 

          Room 7898C, HCHB 

14th Street & Constitution Avenue, NW 

        Washington, DC 20230


          Internet Web site: 


          www.oig.doc.gov

